CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner,
v.
Dakota Shay Fox
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. FOX PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, prepaid for deliveryto the following address.
Maria T. Kolar
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
(405) 314-6864
Maria.Kolar@oids.ok.gov
Counsel for Dakota Shay Fox

Lucas DeDeus

September 24, 2021
SCP Tracking: Cleveland-313 N.E. Twenty-First Street-Cover White

